No. 20-1379
IN THE

Supreme Court of the United States

d

SOUTHEASTERN PENNSYLVANIA TRANSPORTATION AUTHORITY,
—v.—

THE CENTER

FOR INVESTIGATIVE

Petitioner,

REPORTING,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE THIRD CIRCUIT

BRIEF IN OPPOSITION
John S. Stapleton
LE VAN MUHIC STAPLETON LLC
One Liberty Place
1650 Market Street, Suite 3600
Philadelphia, PA 19103
(215) 561-1500
Robert A. Wiygul
HANGLEY ARONCHICK SEGAL
PUDLIN & SCHILLER
One Logan Square, 27th Floor
Philadelphia, PA 19103
D. Victoria Baranetsky
Alexandra Gutierrez
THE CENTER FOR INVESTIGATIVE
REPORTING
1400 65th Street, Suite 200
Emeryville, CA 94608

Brian M. Hauss
Counsel of Record
Ben Wizner
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2500
bhauss@aclu.org
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, N.W.
Washington, D.C. 20005
Witold J. Walczak
AMERICAN CIVIL LIBERTIES
UNION OF PENNSYLVANIA
P.O. Box 23058
Pittsburgh, PA 15222
Seth F. Kreimer
3501 Sansom Street
Philadelphia, PA 19104

QUESTION PRESENTED
Whether a public transit system’s policy
banning advertisements that contain “political
messages” or that address “political . . . issues” is
incapable of reasoned application, and therefore
violates the First Amendment, where: the policy is not
limited to electoral campaign advertisements; the
term “political” is otherwise not defined; the public
transit system has not issued any guidance to cabin
the discretion of enforcement officials; and the record
contains numerous examples of arbitrary application.

i

TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
TABLE OF AUTHORITIES ...................................... iv
INTRODUCTION ....................................................... 1
STATEMENT OF THE CASE.................................... 7
I.

II.

Factual Background ........................................... 7
A.

Advertising on SEPTA ............................... 7

B.

SEPTA’s Advertising Rules ........................ 8

C.

SEPTA’s Rejection of CIR’s Proposed
Advertisements ......................................... 14

PROCEEDINGS BELOW ................................ 21
A.

District Court Proceedings ....................... 21

B.

Court of Appeals Proceedings .................. 23

REASONS FOR DENYING CERTIORARI ............. 27
I.

There Is No Circuit Split Regarding the
Application of Mansky to Public Transit
Systems ............................................................. 27

II.

The Decision Below Does Not Conflict with
Lehman ............................................................. 29

III. This Case Is a Poor Vehicle for Resolving
Any Questions About Mansky’s Application
to the Advertising Policies of Public Transit
Systems ............................................................. 32

ii

A.

SEPTA Did Not Appeal the District Court’s
Holding that Portions of the Challenged
Provisions Were Unconstitutional, and
Therefore the Standard at Issue Is Not the
Standard Applied to CIR .......................... 33

B.

SEPTA’s Application of the Challenged
Provisions Was Arbitrary ......................... 34

C.

SEPTA’s Advertising Space Is a
Designated Public Forum ......................... 36

D.

SEPTA’s Application of the Challenged
Provisions to CIR Was Viewpoint
Discriminatory .......................................... 37

IV. The Judgment Below Is Correct ...................... 38
CONCLUSION ......................................................... 43

iii

TABLE OF AUTHORITIES
CASES
American Freedom Defense Initiative v. Southeastern
Pennsylvania Transportation Authority,
92 F. Supp. 3d 314 (E.D. Pa. 2015) ....................... 36
Amalgamated Transit Union Local 1015 v. Spokane
Transit Authority,
929 F.3d 643 (9th Cir. 2019) ................................. 28
American Freedom Defense Initiative v. Suburban
Mobility Authority for Regional Transportation,
978 F.3d 481 (6th Cir. 2020) ........................... 27, 28
American Freedom Defense Initiative v. Washington
Metropolitan Area Transit Authority,
901 F.3d 356 (D.C. Cir. 2018) .................... 28, 29, 39
Christ’s Bride Ministries v. Southeastern
Pennsylvania Transportation Authority,
148 F.3d 242 (3d Cir. 1998) ................................... 36
Jennings v. Stephens,
574 U.S. 271 (2015)................................................ 33
Lehman v. City of Shaker Heights,
418 U.S. 298 (1974).........................................passim
Matal v. Tam,
137 S. Ct. 1744 (2017) ........................................... 38
Miller v. Johnson,
515 U.S. 900 (1995)................................................ 37
Minnesota Voters Alliance v. Mansky,
138 S. Ct. 1876 (2018) ....................................passim
Pleasant Grove City v. Summum,
555 U.S. 460 (2009)................................................ 37

iv

Rosenberger v. Rector & Visitors of the Univ. of Va.,
515 U.S. 819 (1995)................................................ 38
Zukerman v. United States Postal Serv.,
961 F.3d 431 (D.C. Cir. 2020) .......................... 29, 32
STATUTES
12 C.F.R. § 338.3(a) (2021) ....................................... 37
OTHER AUTHORITIES
Emmanuel Martinez & Aaron Glantz, How Reveal
Identified Lending Disparities in Federal Mortgage
Data, Reveal (Feb. 15, 2018),
https://bit.ly/2SWvWee .......................................... 21

v

INTRODUCTION
Petitioner
Southeastern
Pennsylvania
Transportation Authority (SEPTA) rejected proposed
advertisements submitted by Respondent The Center
for Investigative Reporting (CIR) to promote CIR’s
award-winning news investigation, which used
computational data to identify substantial racial
disparities in American banks’ mortgage lending
practices across the country, including in
Philadelphia. At the same time, SEPTA accepted
advertisements from Philadelphia area banks
professing their adherence to laws prohibiting racial
discrimination.
Although CIR’s proposed advertisements
merely sought to inform the public about the empirical
findings of CIR’s investigation, SEPTA rejected the
advertisements pursuant to two provisions of
SEPTA’s advertising policy (the “Challenged
Provisions”) prohibiting advertisements that are
“political in nature” or that express “an opinion,
position or viewpoint on matters of public debate
about economic, political, religious, historical or social
issues.” SEPTA has not issued any written guidance
clarifying what these provisions mean or how they
should be applied.
SEPTA’s General Counsel, the final arbiter of
whether SEPTA’s advertising restrictions apply to
any proposed advertisement, struggled to articulate
what the Challenged Provisions mean. He testified
that the terms “political” and “political in nature”
were “essentially the same,” before testifying on crossexamination that the terms have distinct and
separate meanings. Pet. App. 14a. He testified that
the phrase “political in nature” means “directly or
1

indirectly implicates the action, inaction, prospective
action or policies of a government entity,” but he also
testified that an advertisement could be political in
nature without “directly or indirectly implicating the
action, inaction, prospective action or policies of a
government entity.” Pet. App. 14a, 15a. And he
testified that, to determine whether an issue is a
“matter of public debate,” he performs a personal
analysis—including Google searches—“to see what is
being argued, debated in society in general.” Pet. App.
14a, 82a.
What I do, generally speaking, is I look
at the ad first, and I just kind of absorb
it, for lack of a better word. I think about
it.
And then I go on the internet and I
Google various phrases about, you know,
what the advertisement is projecting,
what message it is, and I see what comes
up, and I see if there’s a meaningful
debate about the issue that the
advertisement is promoting.
Pet. App. 82a.
The Challenged Provisions’ open-ended
language, together with the lack of structure or
guidance governing SEPTA’s application of the
Challenged Provisions, has engendered arbitrary
decision-making. SEPTA applied the Challenged
Provisions to reject advertisements calling on art
museums to pay their workers a living wage,
promoting adoption as a response to unplanned
pregnancies, and seeking to raise awareness about
2

human trafficking. Pet. App. 16a. Meanwhile, SEPTA
accepted advertisements welcoming the Democratic
National Committee, warning about “Fake news,” and
displaying quotes from Martin Luther King, Jr., Cesar
Chavez, and Lucretia Mott to promote the peace
movement. Pet. App. 16a–17a, 86a, 87a. Indeed,
SEPTA’s haphazard application of the Challenged
Provisions extends to the circumstances at issue here:
SEPTA accepted several advertisements from
financial institutions professing that they do not
discriminate on the basis of race, including in
mortgage lending, Pet. App. 17a, even as it rejected
CIR’s advertisement promoting its empirical findings
about widespread racial discrimination in the
mortgage market.
The district court held that the Challenged
Provisions were unconstitutional because they were
“incapable of reasoned application.” Pet. App. 17a–
19a, 105a–08a. In so holding, the district court applied
this Court’s recent decision in Minnesota Voters
Alliance v. Mansky, 138 S. Ct. 1876 (2018), which
struck down a similarly indeterminate prohibition on
“political” apparel in polling places. Having
determined that the challenged provisions were
unconstitutional, the district court then sua sponte
redrafted the restrictions, directing SEPTA to revise
the “political” and “public debate” provisions to read:
(a)

Advertisements promoting or opposing
a political party, or promoting or
opposing the election of any candidate
or group of candidates for federal, state,
judicial or local government offices are
prohibited. In addition, advertisements
that are political in nature or contain
3

political
messages,
including
advertisements involving political or
judicial figures and/or advertisements
involving an issue that is political in
nature in that it directly or indirectly
implicates
the
action,
inaction,
prospective action or policies of a
government entity.
(b)

Advertisements
expressing
or
advocating an opinion, position or
viewpoint on matters of public debate
about economic, political, religious,
historical, or social issues.

Pet. App. 18a n.2, 108a. The court then upheld
SEPTA’s rejection of CIR’s advertisements under the
judicially revised policy, even though SEPTA had
never applied this standard to CIR (or anyone else).
Pet. App. 19a, 143a.
The Third Circuit reversed, holding that the
revised Challenged Provisions are also incapable of
reasoned application. The court observed that: (i)
SEPTA did not cross-appeal the district court’s
decision invalidating the original Challenged
Provisions, but failed to explain how the revised
provisions—which are in some respects broader than
the originals—are any more workable; (ii) SEPTA has
not issued any guidance constraining enforcement
officials’ discretion in applying the Challenged
Provisions; and (iii) the record contains numerous
examples of SEPTA’s arbitrary application of the
Challenged Provisions. The court also noted that
SEPTA remains free to revise the Challenged
4

Provisions to appropriately cabin enforcement
officials’ discretion. Pet. App. 26a–27a, 29a.
This Court should deny SEPTA’s petition for a
writ of certiorari. First, as SEPTA itself concedes,
there is no circuit split regarding the application of
Mansky to public transit systems’ advertising policies.
To the contrary, in addition to the Third Circuit’s
unanimous decision applying Mansky in this case, the
Sixth Circuit has also unanimously held that a public
transit system’s poorly defined restriction on
“political” advertisements was unconstitutional under
Mansky, and the Ninth and D.C. Circuits have
suggested without holding that they would likely
reach a similar conclusion. Not a single federal court
of appeals—or even a single circuit court judge—has
suggested that Mansky does not or should not apply to
the advertising policies of public transit systems.
Second, SEPTA’s argument that the decision
below contradicts this Court’s ruling in Lehman v.
City of Shaker Heights, 418 U.S. 298 (1974), is
misplaced. In Lehman, this Court held that the First
Amendment does not require a public transit system,
or any other nonpublic forum, to accept a political
candidate’s campaign advertisements. The Lehman
Court confronted a decision to refuse candidate
advertising that was indisputably political; it did not
address the application of a “political” speech ban to
expression wholly outside the electoral context.
Mansky clarified that—whereas restrictions on
electoral campaign speech are relatively “lucid”—illdefined restrictions on “political” expression that
potentially encompass speech on any number of topics
violate the First Amendment because they are
incapable of reasoned application.
5

SEPTA is also wrong to suggest that Lehman
established an independent body of First Amendment
doctrine for speech on public transit systems. To the
contrary, Lehman expressly acknowledged that the
rules laid down in that case apply to nonpublic forums
generally, and, among other things, prohibit speech
restrictions that are arbitrary, capricious, or
invidious. Mansky established that, even in a
nonpublic forum, ill-defined restrictions on “political”
speech (such as the Challenged Provisions) give rise
to precisely the sort of arbitrary or selective
applications that Lehman forbids. Lehman is entirely
consistent with both Mansky and the decision below.
Third, even if there were some tension between
Lehman and Mansky, this case would not be a good
vehicle for resolving it. This appeal comes to the Court
in a highly unusual posture: SEPTA did not crossappeal the district court’s decision striking down the
original Challenged Provisions, so this Court would be
required to assess the constitutionality of the district
court’s revisions, rather than SEPTA’s original policy.
Moreover, there is no evidence in the record
concerning
SEPTA’s
interpretation
or
implementation of the revised provisions, and no
reason to believe the revised provisions will be
implemented any less arbitrarily. There are also
several alternative grounds for affirmance that were
not reached by the court of appeals, including:
SEPTA’s arbitrary application of the Challenged
Provisions; SEPTA’s failure to convert its advertising
space from a designated public forum to a nonpublic
forum; and SEPTA’s viewpoint-discriminatory
decision to exclude CIR’s advertisement asserting
discrimination by mortgage lenders while allowing
6

financial institutions to advertise that they are equalopportunity lenders.
Finally, the court of appeals’ judgment was
correct. In evaluating SEPTA’s ban on “political”
advertisements, the Third Circuit looked to the same
factors Mansky considered in striking down
Minnesota’s ban on “political” apparel, namely: the
official definition of the challenged term, the absence
of guidance documents providing workable standards
to cabin the discretion of enforcement officials, and
evidence regarding the transit system’s inconsistent
implementation of the policy. All of these factors
support the conclusion that the Challenged Provisions
are incapable of reasoned application. SEPTA’s policy
does not define what constitutes a “political”
advertisement; SEPTA has not provided any relevant
guidance to aid enforcement officials; and the record
contains multiple examples of arbitrary application.
SEPTA also remains free to clarify the Challenged
Provisions in order to bring them into compliance with
Mansky. For all these reasons, the petition for a writ
of certiorari should be denied.
STATEMENT OF THE CASE
I.

Factual Background
A.

Advertising on SEPTA

The
Southeastern
Pennsylvania
Transportation Authority operates a transit system
that serves Pennsylvania, Delaware, and New Jersey.
Pet. App. 38a. To raise revenue, it leases advertising
space on its more than 2,500 vehicles (including buses
and trains) and in more than 200 stations and
facilities. Pet. App. 75a. It accepts both commercial
7

and
non-commercial
advertisements,
without
distinguishing between them. Pet. App. 15a. During
the period in which SEPTA applied the restrictions at
issue, it accepted more than 2,700 advertisements and
rejected fewer than 15 proposals, including CIR’s
advertisements. Pet. App. 83a.
In addition to conventional print advertising
spaces on the exterior and interior of SEPTA vehicles
and in SEPTA stations, the available advertising
spaces included digital displays on many SEPTA
vehicles. Pet. App. 52a. These digital displays
interspersed paid advertisements with transit route
information. Id. The digital displays also included
“infotainment” consisting of news headlines from the
Associated Press and Reuters. Id. SEPTA did not
review, and was not even informed about, the content
on the new feeds featured in the digital displays. Id. 1
B.

SEPTA’s Advertising Rules

SEPTA’s 2015 Advertising Standards contain
twenty-two provisions prohibiting certain types of
advertisements. Pet. App. 76a. Two of those
provisions are at issue here: subsection (a), which
prohibits advertisements that are “political in
nature,” and subsection (b), which prohibits speech
that addresses “political . . . issues.”
As originally drafted, subsection (a) of SEPTA’s
Advertising Standards provided:
1 After trial, SEPTA stopped including newsfeeds in its digital
displays. Pet. App. 149a–50a n.2. However, it did not change the
Challenged Provisions before the district court issued its
decision.

8

Advertisements promoting or opposing a
political party, or promoting or opposing
the election of any candidate or group of
candidates for federal, state, judicial or
local government offices are prohibited.
In addition, advertisements that are
political in nature or contain political
messages, including advertisements
involving political or judicial figures
and/or advertisements involving an issue
that is political in nature in that it
directly or indirectly implicates the
action, inaction, prospective action or
policies of a government entity.
Pet. App. 11a.
As originally drafted, subsection (b) of SEPTA’s
Advertising Policy prohibited “[a]dvertisements
expressing or advocating an opinion, position or
viewpoint on matters of public debate about economic,
political, religious, historical or social issues.” Id.
The Advertising Standards themselves are the
only written guidance SEPTA has published
regarding what advertising content is acceptable on
its system. Pet. App. 25a, 81a.
All proposed advertisements are reviewed by
SEPTA’s third-party vendor, Intersection, and at least
one SEPTA employee. Pet. App. 80a. Advertisements
that Intersection and the reviewing SEPTA employee
believe fall in a “gray area” are elevated to SEPTA’s
General Counsel, Gino Benedetti, for further review
to assess whether they comply with SEPTA’s
advertising restrictions. Pet. App. 81a. Benedetti is
9

the final arbiter for determining whether an
advertisement
violates
SEPTA’s
advertising
standards. Id.
Benedetti struggled to articulate what the
Challenged Provisions mean. He testified on direct
examination that the terms “political” and “political in
nature” were “essentially the same to [him],” then
testified on cross-examination that the terms have
distinct and separate meanings. Pet. App. 14a. He
testified that the phrase “political in nature” means
“directly or indirectly implicates the action, inaction,
prospective action or policies of a government entity,”
id., but he also testified that an advertisement could
be political in nature without “directly or indirectly
implicating the action, inaction, prospective action or
policies of a government entity,” Pet. App. 15a. During
his deposition, he testified that “political in nature”
means: “Anything that one party may support and
another doesn’t. I don’t mean any political party, but
I mean individuals or groups.” Pet. App. 152a n.3.
Benedetti also testified that, in determining
whether an advertisement addresses a matter of
public debate, he performs “a mechanical type of
analysis that . . . look[s] to see what is being argued,
debated in society in general.” Pet. App. 14a. He
elaborated that he evaluates “holistically . . . the
subject matter of that ad being debated in society at
large.” Id. He stated that he uses “common sense” and
discussions with others to determine whether a
particular subject is a matter of public debate. Id. He
also “Google[s] various phrases about . . . what the
advertisement is projecting, what message it is,” and
that he reviews the results to “see if there’s a
meaningful debate about the issue that the
10

advertisement is promoting.” Pet. App. 82a. Benedetti
testified that he cannot tell whether any
advertisement concept or specific advertisement
violates the Challenged Provisions without first
engaging in this process of research and discussion.
Joint Appendix (JA) 1105–07, 1110. He could not say
whether any hypothetical advertisements—including
advertisements stating “Vote on Election Day,” “Join
the Military,” “ACLU: Defending Freedom,” “Don’t
Litter,” or the text of the First Amendment—would
violate the Challenged Provisions. JA 1105, 1110–12,
370–71.
The lack of any formal guidance or structure
governing SEPTA’s application of the Challenged
Provisions has led to arbitrary decision-making. From
the time that SEPTA implemented its 2015
Advertising Standards through trial, it accepted at
least 2,736 unique proposals to advertise in SEPTA’s
advertising spaces. Pet. App. 83a. These included:
•

An advertisement from the Philadelphia
Host Committee for the 2016 Democratic
National Convention that stated:
“Welcome
[Democratic
National
Committee]. We are Philadelphia’s:
union, middle class jobs, office cleaners,
community, neighbors, building service
workers, window washers, security
officers, families, school district workers.
Road out of poverty.” Pet. App. 16a; JA
756.

•

A Facebook advertising campaign
warning against “Fake news” and
“Clickbait.” Pet. App. 17a; JA 971–72.
11

•

An advertisement for an event at the
African American Museum that featured
quotes from and pictures of Martin
Luther King, Jr., Cesar Chavez, and
Lucretia Mott (all of whom SEPTA
described as “controversial”) and asked
readers “What will you do for Peace?”
Pet. App. 16a–17a; JA 757.

•

A series of advertisements for Fusion
media with the phrase “As American As”
and photographs of people of many races,
ethnicities, and religions, including a
photograph of a Black child wearing a Tshirt that says “MY LIFE MATTERS.”
Pet. App. 15a, 28a; JA 761–74.

•

Several bank advertisements regarding
home loans that included Equal Housing
Lender and/or Member FDIC logos. Pet.
App. 17a; JA 775–76, 778, 781–82.

•

Numerous advertisements promoting
government programs and policy, such
as: (1) a Centers for Disease Control and
Prevention advertisement stating “Help
him fight measles with the most
powerful defense. Vaccines.”; and (2) a
Philadelphia FIGHT Community Health
Center advertisement stating, “Have you
or someone you know been impacted by
mass incarceration? Find out how to
fight for your rights, and for the rights of
your family, friends and community
members.” Pet. App. 84a–85a; JA 792,
807–10.
12

SEPTA rejected fewer than 15 advertisements
under the 2015 Advertising Standards. In addition to
CIR’s advertisement, SEPTA rejected all of the
following advertisements under the Challenged
Provisions:
•

An advertisement stating “Dear Art
Museum: Art is Expensive! So is
constructing new buildings! We totally
get why you can’t pay all your employees
a living wage!” Pet. App. 16a; JA 818.

•

A
Bethany
Christian
Services
advertisement
stating
“Unplanned
Pregnancy? NOW WHAT? Consider
adoption as an option. You don’t have to
make your decision alone.” Pet. App. 16a;
JA 819.

•

An advertisement calling on “big
tobacco” to stop advertising to children.
Pet. App. 59a–60a; JA 823–26.

•

A health department advertisement
urging Philadelphians to wear condoms
to stop the spread of the Zika virus. Pet.
App. 60a; JA 827–30.

•

A series of proposed advertisements by
Planned Parenthood stating “Everybody
deserves expert care,” “Talk to the Birth
Control Experts,” or “Ask the Women’s
Health Care Experts – Birth Control at
Planned Parenthood.” Pet. App. 60a–
61a; JA 831–34.

13

•

An advertisement designed to get
SEPTA riders to pray for a sick child,
stating
“Fight
for
Bean”
and
“#STORMTHEHEAVENS.” Pet. App.
61a; JA 839–40.

•

An advertisement for XQ The Super
School Project, stating “Education Isn’t a
Problem. It’s a Solution.” Pet. App. 62a;
JA 842.

SEPTA also ordered the removal of two
advertisements it had accepted, including an
advertisement promoting opportunities to become a
sperm donor, after Benedetti saw them while riding
on SEPTA and determined that they violated the
“public debate” provision. Pet. App. 61a. Benedetti
testified that he determined the sperm donor
advertisement should be removed because “[p]eople
are on both sides” of whether sperm donation is
“something we should be doing as a society.” Pet. App.
61a n.10.
C.

SEPTA’s
Rejection
of
Proposed Advertisements

CIR’s

The Center for Investigative Reporting is a
California-based, nonprofit, investigative journalism
organization. Pet. App. 5a. Its mission is to advance
social justice through the dissemination of “verifiable,
nonpartisan facts[.]” Id. CIR publishes its news on its
“Reveal”-branded platforms, including on its website,
national radio show, and podcast. Id.
In January 2018, CIR submitted a proposed
advertisement for display on the interior of SEPTA
buses. Id. The proposed advertisement consisted of a
14

graphic illustration entitled “A Stacked Deck,” which
summarized the findings of a then-forthcoming CIR
report regarding discrimination in mortgage lending
throughout the United States. Id. The report, which
was based on a multi-year investigation, indicated
that applicants of color in 61 metropolitan areas were
more likely than white applicants to be denied
conventional home purchase mortgages. Id.
The advertisement was as follows:

15

16

17

18

19

Pet. App. 5a–10a.
SEPTA rejected CIR’s advertisement because
“[d]isparate lending is a matter of public debate and
litigation.” Pet. App. 11a. SEPTA later stated that it
rejected CIR’s proposed advertisement pursuant to
subparagraphs (a) and (b) of the 2015 Advertising
Standards. Id.
Benedetti testified that, as part of his
deliberation over CIR’s proposed advertisement, he
reviewed: CIR’s website, an article by the American
Bankers Association disputing CIR’s reporting, an
editorial in the New York Times, and lawsuits and
settlements regarding discriminatory lending. Pet.
App. 50a. He stated that he found the American
Bankers Association article “important . . . because it
criticized the research upon which the ad CIR
20

proposed was based.” Id. Benedetti’s personal
research led him to the conclusion that there was a
“real live debate” between CIR and the American
Bankers Association about discriminatory lending,
Pet. App. 50a, even though CIR’s reporting has been
verified by numerous specialists and academics. 2
During litigation, Benedetti also testified that
aspects of the illustrations in two panels of CIR’s
proposed advertisement were of “particular
concern”—one showing “a white hand handing keys
and stick of dynamite to a black hand,” and one that
displayed
“African-Americans
holding
signs
protesting . . . and a white guy not part of the protest.”
Pet. App. 43a. CIR drafted an additional set of
proposed advertisements that removed the design
elements to which SEPTA objected. Id. SEPTA
rejected the revised advertisements as being “barred
by the same advertising standards as the first.” Id.
II.

PROCEEDINGS BELOW
A.

District Court Proceedings

CIR filed suit against SEPTA, alleging that
SEPTA had violated CIR’s First and Fourteenth
Amendment rights by rejecting its proposed
advertisement. Pet. App. 12a. The Complaint sought
a declaration that the Challenged Provisions are
unconstitutional and a permanent injunction
prohibiting SEPTA from enforcing the Challenged
2 See Emmanuel Martinez & Aaron Glantz, How Reveal
Identified Lending Disparities in Federal Mortgage Data, Reveal
(Feb. 15, 2018), https://bit.ly/2SWvWee. This reporting resulted
in CIR being named a finalist for the Pulitzer Prize.

21

Provisions to exclude CIR’s proposed advertisement.
Pet. App. 12a–13a.
After holding a bench trial, the district court
issued a Memorandum Opinion on November 28,
2018. Pet. App. 17a, 33a–141a. The court held that the
“political” and “public debate” provisions as
implemented by SEPTA were “incapable of reasoned
application,” and were therefore invalid under
Mansky. Pet. App. 107a–08a. Over SEPTA’s objection,
the court directed SEPTA to revise the “political” and
“public debate” provisions as follows:
(a)

Advertisements promoting or opposing a
political party, or promoting or opposing
the election of any candidate or group of
candidates for federal, state, judicial or
local government offices are prohibited.
In addition, advertisements that are
political in nature or contain political
messages, including advertisements
involving political or judicial figures
and/or advertisements involving an issue
that is political in nature in that it
directly or indirectly implicates the
action, inaction, prospective action or
policies of a government entity.

(b)

Advertisements
expressing
or
advocating an opinion, position or
viewpoint on matters of public debate
about economic, political, religious,
historical, or social issues.

22

Pet. App. 108a. 3 Notably, while the court invalidated
the language prohibiting advertisements that are
“political in nature,” it did not invalidate the language
prohibiting “political messages” or speech about
“political” issues. The court concluded that the rules,
as it had unilaterally revised them, were reasonable
and not viewpoint discriminatory. Pet. App. 122a–
40a.
On December 20, 2018, the district court
entered a Final Judgment and Decree granting
judgment for CIR in part and for SEPTA in part. Pet.
App. 143a–45a. The court declared that portions of
SEPTA’s restrictions “must be stricken to nullify the
threat of unfettered discretion on the part of SEPTA,”
and ordered SEPTA to adopt the Court’s revised rules.
Pet. App. 143a. Even though SEPTA had rejected
CIR’s advertisement under provisions the district
court concluded were unconstitutional, and had never
reviewed CIR’s advertisement under the district
court’s rewritten standards, the court nonetheless
concluded that SEPTA had “acted reasonably” in
rejecting CIR’s advertisements. Id.
On January 18, 2019, CIR appealed. Notice of
Appeal, D. Ct. ECF No. 61. SEPTA did not crossappeal the determination that the challenged
provisions were inconsistent with Mansky.
B.

Court of Appeals Proceedings

The Third Circuit unanimously reversed the
denial of relief to CIR, holding that the revised
3 The court also ordered SEPTA to implement a meet-and-confer
program for advertisements that SEPTA deems to be in violation
of its Advertising Standards. Pet. App. 109a–10a.

23

Challenged Provisions also violate the rule laid down
in Mansky. In Mansky, the court of appeals explained,
this Court held that a ban on political apparel inside
polling places was incapable of reasoned application
because the term “political” “was not defined in the
statute” and “had been interpreted in various ways in
the State’s official guidance documents.” Pet. App.
24a. The court of appeals concluded that the
Challenged Provisions’ “ill-defined” restriction on
advertisements that (in SEPTA’s view) contain
“political messages” or address “political issues” is
likewise incapable of reasoned application, given “the
absence of guidelines cabining SEPTA’s General
Counsel’s discretion in determining what constitutes
a political advertisement” and the “virtually openended interpretation” the policy has received in
practice. Pet. App. 26a, 27a.
SEPTA attempted to distinguish Mansky in
three ways, none of which the court of appeals found
persuasive.
First, the court rejected SEPTA’s argument
that Mansky’s holding should be limited to polling
places. Pet. App. 26a. It observed that Mansky itself
contained no such limitation. And it noted that
“SEPTA does not challenge the District Court’s
holding that portions of the Challenged Provisions
were overbroad, but it fails to offer any reason why the
lingering references to advertisements that ‘contain
political messages’ and those that address ‘political
issues’ are any more capable of reasoned application
than those that were struck down.” Id.
Second, the court rejected SEPTA’s argument
that its ban was distinguishable from the Minnesota
24

statute in Mansky because, whereas Minnesota had
“issued contradictory implementing guidelines” for its
law, Pet. App. 25a (quoting Appellee Br. 48), SEPTA
had not issued any guidelines. “[F]ar from helping
SEPTA’s case,” the court reasoned, “the absence of
guidelines cabining SEPTA’s General Counsel’s
discretion in determining what constitutes a political
advertisement actually suggests that, like the
Minnesota statute in Mansky, the lack of objective,
workable standards may allow SEPTA’s General
Counsel’s own politics to shape his views on what
counts as political.” Pet. App. 27a (cleaned up)
(quoting Mansky, 138 S. Ct. at 1891).
Finally, the court rejected SEPTA’s contention
that its review process is more robust than the review
process in Mansky because SEPTA “requires its
General Counsel, and sometimes other lawyers, to
determine whether an advertisement falls within a
prohibition.” Pet. App. 26a. The court pointed out that
SEPTA’s responses to the permissibility of
hypothetical advertisements posed at oral argument
“highlight[] the arbitrariness of the decision-making
process.” Pet. App. 26a. “For example, when we asked
whether an advertisement that depicted three girls of
different races holding hands with a message that
says, ‘This is how racism ends,’ would be political,
counsel for SEPTA responded ‘no, I don’t think so.’” Id.
(citation omitted). Then, “[w]hen the Court adjusted
the hypothetical to include the same picture with a
message that says, ‘This is what America looks like,’
counsel for SEPTA responded by asking, ‘Who’s
putting the ad on?’” Pet. App. 27a (citation omitted).
The court concluded that the “lack of structure
and clear policies governing the decision-making
25

process creates a real risk that [SEPTA’s policy] may
be arbitrarily applied,” and that CIR “has amply
demonstrated that at least on a few occasions that risk
has become a reality.” Pet. App. 28a. For example, “in
its post-trial brief, SEPTA conceded that it should
have rejected a union advertisement supporting the
DNC.” Pet. App. 27a–28a. The court also noted that
SEPTA had accepted an advertisement that “clearly
allude[d] to the Black Lives Matter movement, which
campaigns against violence aimed at Black people and
which has become a lightning rod in the media.” Pet.
App. 28a. “To many,” the court observed, “such an
advertisement would clearly be prohibited under the
Advertising Standards, even as revised by the District
Court. Yet Benedetti determined that it was not.” Id.
Having concluded that the district court’s
amendments failed to cure the Challenged Provisions’
constitutional defects, the court of appeals held the
district court “erred in failing to order SEPTA to run
CIR’s proposed advertisements.” Id. It accordingly
reversed the district court’s judgment and remanded
the case to the district court with instructions to grant
declaratory relief and issue an injunction barring
enforcement of the Challenged Provisions of the
current Advertising Standards against CIR. Pet. App.
30a. It noted that “SEPTA, of course, is free to revise
its Advertising Standards again to cabin the
decisionmaker’s discretion in applying the ban on
‘political’ advertisements.” Pet. App. 29a n.5. It did not
address whether SEPTA’s advertising space is a
designated public forum or whether the Challenged
Provisions are viewpoint discriminatory. Pet. App.
22a–23a.

26

On October 30, 2020, the Third Circuit denied
SEPTA’s petition for rehearing and rehearing en banc,
without dissent. Order, 3d Cir. ECF No. 95.
REASONS FOR DENYING CERTIORARI
I.

There Is No Circuit Split Regarding the
Application of Mansky to Public Transit
Systems.

Petitioner concedes that there is no circuit split
regarding the application of Mansky to public transit
systems’ advertising policies. See Pet. 21–23. In
addition to the Third Circuit’s unanimous decision in
this case, a Sixth Circuit panel unanimously held in
American Freedom Defense Initiative v. Suburban
Mobility Authority for Regional Transportation (AFDI
v. SMART II), 978 F.3d 481 (6th Cir. 2020), that a
transit system’s restriction on so-called “political”
advertisements was unconstitutional because it was
incapable of reasoned application.
Like SEPTA, SMART implemented advertising
guidelines that prohibited, inter alia, “political”
advertisements. Id. at 486. The Sixth Circuit held that
these guidelines “contain the same basic problems
that Mansky identified: They adopt an amorphous ban
on ‘political’ speech that cannot be objectively
applied.” Id. at 498. The court noted that SMART “has
not written down ‘objective, workable standards’ to
define the word ‘political’ and guide officials on the
steps to take when deciding if specific ads qualify,”
and that “the subjective enforcement of an
‘indeterminate prohibition’ increases the ‘opportunity
for abuse’ in its application.” Id. at 497 (citing Mansky,
138 S. Ct. at 1891).
27

The Sixth Circuit’s conclusion was “reinforced
by the way that other circuits have interpreted
Mansky.” See id. In addition to the Third Circuit’s
decision in this case, the Sixth Circuit cited decisions
from the Ninth and D.C. Circuits strongly suggesting
that Mansky prohibits public transit systems from
imposing indeterminate restrictions on “political”
advertisements without workable standards to guide
and constrain the discretion of enforcement officials.
In Amalgamated Transit Union Local 1015 v.
Spokane Transit Authority, 929 F.3d 643 (9th Cir.
2019), the Ninth Circuit upheld an as-applied First
Amendment challenge against the Spokane Transit
Authority’s (STA) rejection of a labor union’s
advertisement, pursuant to its ban on “public issue”
advertising—which STA’s CEO characterized “as a
prohibition on ads that would generate ‘public interest
around issues about which there could be an economic,
social or political debate,” id. at 653. The court did not
invalidate the prohibition on its face, because the
union did “not challenge the trial court’s conclusion
that STA’s policy is definite and objective.” Id. at 654.
But it expressed skepticism that STA’s “public issue”
standard would survive facial review, reasoning that
the “standard lacks objective criteria to provide
guideposts for determining what constitutes
prohibited ‘public issue’ advertising.” Id. at 655.
To the same effect, in American Freedom
Defense Initiative v. Washington Metropolitan Area
Transit Authority (AFDI v. WMATA), 901 F.3d 356
(D.C. Cir. 2018), the D.C. Circuit reversed a district
court decision upholding WMATA’s ban on
“[a]dvertisements intended to influence members of
the public regarding an issue on which there are
28

varying opinions,” id. at 361, 373. The D.C. Circuit
explained that Mansky, which was handed down after
the appeal was fully briefed, “invites arguments about
whether [WMATA’s policy] is capable of reasoned
application.” Id. at 372. It concluded that, on remand,
“AFDI should be given an opportunity to refine its
argument and to supplement the record” with
information about “how [the restriction] has been
applied,” which in turn would inform the analysis “as
to whether it is capable of reasoned application.” Id.
at 373. Cf. Zukerman v. United States Postal Serv.,
961 F.3d 431, 449–50 (D.C. Cir. 2020) (holding that
the Postal Service’s 2018 rule banning depictions of
“political” content in custom postage products was
incapable of reasoned application).
Thus, no federal court of appeals with the
benefit of this Court’s guidance in Mansky has taken
a position that conflicts with the decision below.
Indeed, no federal appellate judge has taken a
contrary position. To be sure, before Mansky was
decided, courts upheld some public transit systems’
open-ended bans on “political” advertising under a
more lenient standard than Mansky allows; however,
not a single court of appeals has done so since Mansky
made
clear
that
such
prohibitions
are
unconstitutional where they are “incapable of
reasoned application.”
II.

The Decision Below Does Not Conflict
with Lehman.

Lacking any disagreement in the courts of
appeals, SEPTA argues that the decision below is at
odds with this Court’s decision in Lehman. According
to SEPTA, Lehman “afford[s] transit authorities the
discretion to prohibit all advertising they regard as
29

‘political’ from their vehicles,” Pet. 13, regardless of
whether they have any guidelines or can articulate a
logical and consistent rationale for their decisions. If
Lehman truly stands for this all-encompassing
position, its import has eluded the judges on the
circuit courts, none of whom has suggested—even in
dissent—that Lehman is in tension with Mansky.
Lehman is not what SEPTA makes it out to be.
In that case, an Ohio General Assembly candidate
sought to place campaign advertisements on the
Shaker Heights Rapid Transit System, and was
informed that the city transit system did not accept
such political advertisements on its vehicles. Lehman,
418 U.S. at 300. Justice Blackmun’s plurality opinion
stated the question presented as “whether a city
which operates a public rapid transit system and sells
advertising space for car cards on its vehicles is
required by the First and Fourteenth Amendments to
accept paid political advertising on behalf of a
candidate for public office.” Id. at 299 (emphasis
added).
The plurality opinion focused on Lehman’s
contention that public transit systems’ advertising
spaces “constitute a public forum protected by the
First Amendment, and that there is a guarantee of
nondiscriminatory access to such publicly owned and
controlled areas of communication ‘regardless of the
primary purpose for which the area is dedicated.’” Id.
at 301. The Court rejected this argument, holding that
the Shaker Heights transit system’s advertising
space, “although incidental to the provision of public
transportation, is a part of the commercial venture,”
and that “a city transit system has discretion to
develop and make reasonable choices concerning the
30

type of advertising that may be displayed in its
vehicles.” Id. at 303.
At the same time, the Lehman Court recognized
that, even in a nonpublic forum, “the policies and
practices governing access to the transit system’s
advertising space must not be arbitrary, capricious, or
invidious.” Id. If Shaker Heights opened up the
limited advertising space available in its transit
system
to
“short-term”
electoral
campaign
advertisements, the Court reasoned, “[t]here could be
lurking doubts about favoritism, and sticky
administrative problems might arise in parceling out
limited space to eager politicians.” Id. at 304.
Two points stand out from the plurality’s
decision. First, in upholding the transit system’s
restriction on political advertisements, the Court
emphasized that the policy of denying “political”
content could not be applied in an arbitrary or
invidious manner. There was simply no dispute in
Lehman that the electoral campaign advertisements
were political, nor any suggestion that the prohibition
had been inconsistently applied. The Court thus had
no occasion to address whether a prohibition on
“political” speech, applied far beyond the “paid
political advertising on behalf of a candidate for public
office” at issue in Lehman, could be incapable of
reasoned application.
To similar effect, the Court in Mansky reasoned
that polling-place restrictions on apparel “relating to
a candidate, measure, or political party appearing on
the ballot, or to the conduct of the election” were “more
lucid” than Minnesota’s undefined restriction on
“political” apparel. Mansky, 138 S. Ct. at 1891
31

(citation omitted); see also Zukerman, 961 F.3d at 451
(distinguishing Lehman on the ground that it upheld
a “more precise, objective, and workable” restriction
against “political advertising on behalf of a candidate
for public office,” as opposed to the Postal Service’s
“blanket ban on ‘political’ content”).
Second, the plurality in Lehman did not suggest
that public transit systems’ advertising spaces are
unique. To the contrary, it stated that its decision
would have implications for “display cases” in all
manner of “public facilities.” Lehman, 418 U.S. at 304.
Lehman did not purport to establish a discrete
category of “public transit authority law” analytically
distinct from other precedents concerning speech
restrictions on government property. See Pet. 16.
Thus, there is no reason that the First Amendment
principles that governed in Mansky should not apply
to public transit advertising spaces.
III.

This Case Is a Poor Vehicle for Resolving
Any
Questions
About
Mansky’s
Application to the Advertising Policies of
Public Transit Systems.

If there were any tension between Lehman and
Mansky, this case would be a poor vehicle to address
it. SEPTA did not appeal the district court’s
determination that the Challenged Provisions were
unconstitutional under Mansky or the district court’s
sua sponte decision to redraft SEPTA’s advertising
standards. As a result, the standard at issue on appeal
was not the standard used to reject CIR’s
advertisement, and has never in fact been applied to
CIR’s advertisement. In addition, there are several
alternative grounds for affirmance not reached by the
32

court of appeals, making a grant of certiorari
improvident.
A.

SEPTA Did Not Appeal the District
Court’s Holding that Portions of the
Challenged
Provisions
Were
Unconstitutional, and Therefore the
Standard at Issue Is Not the
Standard Applied to CIR.

This case comes before the Court in a highly
unusual posture. Because SEPTA did not cross-appeal
the district court’s decision to invalidate the original
provisions and rewrite them, it is now barred from
asserting the constitutionality of the original
Challenged Provisions. See Jennings v. Stephens, 574
U.S. 271, 276 (2015). Yet the revised provisions have
never been applied to CIR’s advertisement. The odd
posture here would complicate this Court’s review in
several ways.
First, even if SEPTA were correct that the
policy as revised by the district court is
constitutionally valid, it was still plain error for the
district court to uphold the rejection of CIR’s
advertisement under a policy that has been finally
determined to be unconstitutional. This provides an
alternative ground for affirmance.
Second, SEPTA asks this Court to resolve the
validity of public transit systems’ restrictions on
“political” advertisements in an appeal concerning a
judicially rewritten advertising policy that was
imposed over SEPTA’s objection and that has never
been applied to CIR’s advertisement.

33

Third, there is no evidence in the record
concerning SEPTA’s application of the judicially
revised policy. The absence of record evidence
concerning the actual policy under review would
impair this Court’s ability to assess the question
presented.
B.

SEPTA’s
Application
of
Challenged
Provisions
Arbitrary.

the
Was

This case is also a poor vehicle for review of the
broad question SEPTA presents because SEPTA’s
arbitrary application of its policy provides an
independent, and fact-specific, basis for affirmance,
regardless of the provisions’ facial validity.
SEPTA’s General Counsel offered an utterly
incoherent understanding of the Challenged
Provisions, and his process for applying them was
haphazard at best. As noted above, he testified that he
conducts Google searches, uses “common sense,” and
has “discussions [with colleagues] to determine what
is a matter of public debate.” See Statement of the
Case I.B, supra. He “testified on direct examination
that the terms ‘political’ and ‘political in nature’ were
‘essentially the same to [him],’” but then testified on
cross-examination “that the terms have . . . distinct
and separate meanings.” Pet. App. 14a. “He testified
that mentioning a law or regulation could be
considered political in nature, but he also testified
that an advertisement could be political in nature
without ‘directly or indirectly implicating the action,
inaction, prospective action or policies of a
government entity.’” Pet. App. 15a. And he also
testified “that an advertisement can involve politics
and not violate either provision.” Pet. App. 14a.
34

This testimony led the court of appeals to
conclude that “the lack of structure and clear policies
governing the decision-making process creates a real
risk that [the Challenged Provisions] may be
arbitrarily applied.” Pet. App. 28a. The court also
found that “CIR has amply demonstrated that at least
on a few occasions that risk has become a reality,”
citing, inter alia, SEPTA’s decision to accept a union
advertisement welcoming the Democratic National
Committee. Pet. App. at 27a–28a. Although SEPTA
complains that the Third Circuit “relied on only four
examples” of arbitrary application, Pet. 18, the record
discloses numerous other instances of arbitrary
application. For instance, SEPTA’s General Counsel
rejected an advertisement calling on art museums to
pay a living wage, and another promoting adoption as
a response to unplanned pregnancy, because he
considered these topics to be matters of public debate.
Pet. App. 16a. He also could not explain why he
rejected a United States Department of Homeland
Security advertisement that referenced human
trafficking. Id. Meanwhile, SEPTA accepted
advertisements promoting the peace movement and
warning readers against “Fake News.” Pet. App. 16a–
17a. There is simply no rational way to reconcile the
advertisements SEPTA has accepted and those it has
denied under the Challenged Provisions. See
Statement of the Case I.B, supra.
This record provides an alternative ground for
affirmance. Even if this Court were to conclude that
the revised Challenged Provisions are facially capable
of reasoned application, the record demonstrates that
SEPTA’s application was in fact so arbitrary and
inconsistent that its rejection of CIR’s proposed
advertisement violated the First Amendment as
35

applied here. See Lehman, 418 U.S. at 303 (“[T]he
policies and practices governing access to the transit
system’s advertising space must not be arbitrary,
capricious, or invidious.” (emphasis added)).
C.

SEPTA’s Advertising Space Is a
Designated Public Forum.

The court of appeals’ decision can also be
affirmed on the alternative ground that SEPTA’s
content-based
restriction
on
“political”
advertisements is impermissible in a designated
public forum.
Prior to this litigation, the last two courts to
consider whether SEPTA’s advertising space was a
designated public forum ruled that it was. See Christ’s
Bride Ministries v. SEPTA, 148 F.3d 242, 255 (3d Cir.
1998); AFDI v. SEPTA, 92 F. Supp. 3d 314, 326 (E.D.
Pa. 2015). CIR argued below that SEPTA’s
advertising space remains a designated public forum
because SEPTA continues to accept the vast majority
of proposed advertisements, including advertisements
from both commercial and non-commercial entities on
a wide range of topics that touch on matters of public
debate. Pet. App. 20a–21a; Appellant’s Opening Br.
51–58.
SEPTA’s claim that it “closed the forum” to
advertising such as CIR’s is further undermined by
the fact that, beginning before this suit commenced
and continuing through the time of trial, SEPTA chose
to intentionally expose its riders to news headlines on
political issues and matters of public debate—the
same content that SEPTA purports to prohibit in
advertisements—in its digital displays. See Pet. App.
52a–53a.
36

Because SEPTA’s advertising space is a
designated public forum, SETPA’s content-based
restriction on “political” speech must survive strict
scrutiny. See, e.g., Pleasant Grove City v. Summum,
555 U.S. 460, 469–70 (2009). The Challenged
Provisions plainly cannot satisfy that “most rigorous
and exacting standard of constitutional review.” See
Miller v. Johnson, 515 U.S. 900, 920 (1995).
D.

SEPTA’s
Application
of
the
Challenged Provisions to CIR Was
Viewpoint Discriminatory.

Finally, the Third Circuit’s decision can also be
affirmed on the ground that SEPTA’s application of
the Challenged Provisions to CIR was viewpoint
discriminatory. As noted above, SEPTA has accepted
numerous advertisements for home loans and other
banking services asserting that the advertiser is an
“Equal Opportunity Lender” or “Equal Housing
Lender.” See Pet. App. 88a. These assertions
represent that the financial institution “makes such
loans without regard to race, color, religion, national
origin, sex, handicap, or familial status.” 12 C.F.R. §
338.3(a) (2021) (“Nondiscriminatory advertising”). As
the district court noted, many of these advertisements
feature non-white models and appear to target
borrowers of color. See Pet. App. 89a–90a.
For example, an advertisement from Tompkins
VIST Bank shows an image of a Black couple and child
in front of a stack of moving boxes. It is captioned
“Making your dream of home ownership a reality,”
and bears the Equal Housing Lender language and
logo. Pet. App. 90a. This advertisement is a nearperfect inverse of the panel in CIR’s advertisement,
which states: “Today in America, people of color are
37

regularly being denied the dream of home ownership.”
Yet SEPTA accepted Tompkins VIST Bank’s
advertisement while rejecting CIR’s. This is textbook
viewpoint discrimination. See Matal v. Tam, 137 S. Ct.
1744, 1766 (2017) (Kennedy, J., concurring in part and
concurring in the judgment); Rosenberger v. Rector &
Visitors of the Univ. of Va., 515 U.S. 819, 828–32
(1995).
In sum, because SEPTA is not even seeking to
defend the Challenged Provisions that were applied to
CIR, and because there are numerous alternative
grounds for affirmance, this case is an exceedingly
poor vehicle for resolving any confusion that might
exist regarding Mansky’s application public transit
systems’ advertising policies.
IV.

The Judgment Below Is Correct.

The court of appeals correctly applied Mansky
to the facts of this case. As the decision below
recognized, the Challenged Provisions are so poorly
defined that they are incapable of reasoned
application, and they are thus constitutionally
deficient.
Restrictions on speech in a nonpublic forum are
generally permissible if they are viewpoint neutral
and reasonably related to the purposes served by the
forum. Mansky, 138 S. Ct. at 1886. To be reasonable,
a restriction must be capable of reasoned application
by enforcement officials. This is a “forgiving test”—
after all, “there is no requirement of narrow tailoring
in a nonpublic forum”—but “the State must be able to
articulate some sensible basis for distinguishing what
may come in from what must stay out.” Id. at 1888.
38

Mansky held that a Minnesota statute
restricting “political” apparel at polling places
violated the First Amendment—even though the
polling place was a nonpublic forum, id. at 1886; the
plaintiff did not claim that the restriction was facially
viewpoint discriminatory, id.; and the restriction was
otherwise reasonably related to Minnesota’s interest
in preventing partisan discord from contaminating
the voting booth, id. at 1888. The Court found that the
“unmoored use of the term ‘political’ in the Minnesota
law, combined with haphazard interpretations the
State has provided in official guidance and
representations to this Court,” made the provision
incapable of reasoned application. Id.
In determining that Minnesota’s polling
apparel statute conferred too much discretion on
officials, this Court looked to the text of the statute,
additional written guidance, and the government
attorneys’ answers to hypothetical questions during
oral argument about the meaning of the statute. Id. at
1889–91. See also AFDI v. WMATA, 901 F.3d at 373
(observing that evidence about how a provision has
been applied also is relevant to whether the provision
is capable of reasoned application under Mansky).
All of these factors support the conclusion that
SEPTA’s restriction on “political” advertisements is
similarly incapable of reasoned application. First, like
the Minnesota statute at issue in Mansky, both the
original and revised versions of the Challenged
Provisions prohibit advertisements that “contain
political messages” and that address “political . . .
issues,” without any definition of the term “political.”
As Mansky noted, “the word can be expansive,”
Mansky, 138 S. Ct. at 1888, potentially encompassing
39

speech on any number of subjects. And just as
Minnesota did not limit its restriction to the more
clearly defined category of electoral campaign
apparel, id. at 1889, SEPTA expressly does not limit
its prohibition to electoral campaign advertisements.
Second, like Minnesota, SEPTA has failed to
clarify the “indeterminate scope” of the Challenged
Provisions through administrative guidance. Id.
While Minnesota’s “haphazard interpretations”
caused confusion among enforcement officials, here
SEPTA has issued no guidance whatsoever. The
fundamental problem with Minnesota’s law was that
the absence of “objective, workable standards” gave
rise to an intolerable risk that “an election judge’s own
politics may shape his views on what counts as
‘political.’” Id. at 1891. The same risk presents itself
here, as Benedetti’s testimony about how he
interprets and applies the Challenged Provisions
demonstrates. Pet. App. 27a–28a.
Third, SEPTA’s responses to the hypothetical
scenarios posed by the panel at oral argument, as well
as the record of actual applications recited above,
further demonstrate that the provisions invite
arbitrary or invidious enforcement. See Mansky, 138
S. Ct. at 1891 (detailing realistic hypotheticals that
“even the State’s top lawyers struggle to solve”). “For
example, when asked whether an advertisement that
depicted three girls of different races holding hands
with a message that says, ‘This is how racism ends,’
would be political, counsel for SEPTA responded ‘no, I
don’t think so.’” Pet. App. 26a (citation omitted). But
“[w]hen the Court adjusted the hypothetical to include
the same picture with a message that says, “This is
what America looks like,” counsel for SEPTA
40

responded by asking, ‘Who’s putting the ad on?’” Pet.
App. 27a (citation omitted). These responses
“highlight[] the extent to which [the Challenged
Provisions] are susceptible to erratic application.” Id.
And, as the court of appeals determined, “that
risk has become a reality.” Pet. App. 28. The record
contains numerous perplexing examples of accepted
and rejected advertisements, such as an accepted
advertisement welcoming members of the Democratic
National Committee to the 2016 Democratic National
Convention and a rejected advertisement urging
readers to consider adoption as a response to
unplanned pregnancy. Pet. App. 16a. Even when it
comes to advertisements addressing similar issues,
such as public health, SEPTA has failed to produce
consistent results. It accepted an advertisement
encouraging readers to get vaccinated for Measles,
Pet. App. 84a, but rejected an advertisement
encouraging the use of condoms to prevent the spread
of the Zika virus, Pet. App. 60a. The record does not
evince any ascertainable rationale for determining
what goes in and what stays out under the Challenged
Provisions.
Finally, there is no reason to believe that the
court of appeals’ straightforward application of
Mansky here makes it impossible for SEPTA, or any
public transit system, to have a constitutional
advertising policy. Where a public transit system has
established that its advertising constitutes a
nonpublic forum, it remains free to impose contentbased restrictions on speech, so long as those
restrictions are reasonable (including being capable of
reasoned application) and viewpoint neutral. Indeed,
the court of appeals expressly noted that SEPTA
41

remains “free to revise its Advertising Standards
again to cabin the decisionmaker’s discretion in
applying the ban on ‘political’ advertisements.” Pet.
App. 29a n.5. To the extent other transit systems are
concerned about the constitutionality of their policies,
they also retain the ability to clarify their restrictions
in order to bring them into line with what the First
Amendment requires.
SEPTA’s prediction that any restriction on
political advertisements would fail judicial review,
Pet. 26, is refuted by Mansky itself. There, this Court
noted that many states have enacted laws proscribing
political displays in polling locations “in more lucid
terms” than Minnesota did, such as prohibitions on
the display of political apparel specifically relating to
a candidate, ballot measure, or political party
appearing on the ballot. Mansky, 138 S. Ct. at 1891.
Such restrictions are strikingly similar to the
exclusion of electoral campaign advertisements this
Court upheld in Lehman. 4
Mansky and Lehman thus complement each
other. Lehman stands for the proposition that the
government
may
impose
viewpoint-neutral
restrictions on electoral campaign speech in nonpublic
forums; Mansky stands for the proposition that the
government may not impose ill-defined restrictions on
“political” expression that potentially encompass
speech on all sorts of topics, subject only to
enforcement officials’ whims and prejudices about
what topics are “political.” The court of appeals
CIR does not argue that SEPTA’s restriction on campaign
material is incapable of reasoned application. See Pet. App. 43a
n.1.

4

42

correctly concluded that the Challenged Provisions’
restriction on “political” advertisements violates
Mansky.
CONCLUSION
The petition for a writ of certiorari should be
denied.
Respectfully submitted,
John S. Stapleton
LEVAN MUHIC STAPLETON LLC
One Liberty Place
1650 Market Street,
Suite 3600
Philadelphia, PA 19103
(215) 561-1500
Robert A. Wiygul
HANGLEY ARONCHICK SEGAL
PUDLIN & SCHILLER
One Logan Square,
27th Floor
Philadelphia, PA 19103
D. Victoria Baranetsky
Alexandra Gutierrez
THE CENTER FOR
INVESTIGATIVE REPORTING
1400 65th Street, Suite 200
Emeryville, CA 94608
Date: July 2, 2021

Brian M. Hauss
Counsel of Record
Ben Wizner
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2500
bhauss@aclu.org
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, N.W.
Washington, D.C. 20005
Witold J. Walczak
AMERICAN CIVIL LIBERTIES
UNION OF PENNSYLVANIA
P.O. Box 23058
Pittsburgh, PA 15222
Seth F. Kreimer
3501 Sansom Street
Philadelphia, PA 19104

43

